             OFFICE OF
             INSPECTOR GENERAL
             U.S.DEPARTMENT OF THE INTERIOR


                                                                                        August 24, 2012

Memorandum

To:           Eric Eisenstein
              Division Chief, Internal Control and Audit Follow-up, Office of Financial
              Management
                                    ,. / )

From:         Charles Haman_.. ,·


Subject:      Verification Review of Recommendations for the Inspection Report, "Inspection
              ofthe Implementation of the Motor Vehicle Operation Policy, Bureau of Indian
              Affairs, (Report No. NM-IS-BIA-0002-2008)"
              Report No. Q-VS-BIA-0001-2012

        We have completed a verification review of the six recommendations presented in the
inspection report noted above. Our objective was to determine if the Bureau of Indian Affairs
(BIA) implemented the recommendations as reported to the Office of Financial Management
(PPM), Office of Policy, Management and Budget (PMB). BIA provided PPM with supporting
documentation, and PPM reported to us when BIA had addressed each of the six
recommendations in the subject report. Based on our verification, we agree that BIA resolved
and implemented all six recommendations.

Background

        In July 2008, our inspection report, "Inspection of the Implementation of the Motor
Vehicle Operation Policy, Bureau oflndian Affairs, (Report No. NM-IS-BIA-0002-2008)" noted
that BIA's Motor Vehicle Operation Policy did not allow for timely and effective monitoring of
driver's histories and training. We made six recommendations to improve policy
implementation.

        In a memorandum dated September 26, 2008, BIA's Acting Deputy Assistant Secretary
for Policy and Economic Development responded to the inspection report concurring with all six
recommendations. On October 1, 2008, we referred the recommendations to PMB for tracking
and implementation.

       PPM subsequently issued a series of memorandums. On April19, 2010, PPM reported
that Recommendations 4 and 5 were implemented and closed. On April27, 2011, PPM reported
that Recommendation 6 was implemented and closed. The final memorandum from PPM dated
September 30, 2011 reported that Recommendations 1, 2, and 3 were implemented and closed.




                        Office of Audits, Inspections, and Evaluations I Lakewood, CO
Scope and Methodology

       We limited the scope of this review to obtaining sufficient documentation and then
analyzing the documents in order to evaluate BIA’s implementation of our recommendations. To
accomplish our objective, we reviewed the supporting documentation that BIA officials provided
to PFM and us. We discussed BIA’s actions relating to each of the six recommendations and
independently verified their implementation.

       We did not visit any sites or conduct other fieldwork to determine if BIA corrected the
underlying deficiencies that we initially identified. As a result, this review is not in accordance
with “Government Auditing Standards” issued by the Comptroller General of the United States
or “Quality Standards for Inspection and Evaluation” from the Council of the Inspectors General
on Integrity and Efficiency.

Results of Review

We concluded that BIA implemented and resolved all six recommendations.

       Recommendation 1: Establish specific schedules at the regional level for receiving and
       processing Form 3607s to ensure that all forms are received timely.

       We consider Recommendation 1 resolved and implemented.

Action Taken: The Assistant Secretary—Indian Affairs in a January 12, 2010 memorandum
established a specific schedule by requiring employees to submit Form 3607 annually by
October 1 of each year to the Safety Office. The memorandum further stated that if an employee
fails to submit the form, the supervisor shall suspend the employee's Motor Vehicle Operators
Authorization until the form is submitted. Indian Affairs also submitted compliance certificates
submitted by the Office of the Secretary, Bureau of Indian Affairs, and the Bureau of Indian
Education attesting to compliance with Form 3607 submission requirements.

       Recommendation 2: Ensure that the driving requirements for each position description
       be identified as required by the Policy Guidance Memorandum.

       We consider Recommendation 2 resolved and implemented.

Action Taken: A September 30, 2011 memorandum from the Deputy Assistant Secretary—
Indian Affairs stated that a "Position Description Addendum, Motor Vehicle Operation" was
created and has been attached to every Indian Affairs position description. A sample position
description addendum provided includes three levels of employee driving requirements
(Regularly, Occasionally, or Not Required) to select from for each position description.
Furthermore, senior supervisors of Human Resources responsible for the classification and
maintenance of employee position descriptions signed certifications to memorialize full
compliance.




                                                                                                  2
       Recommendation 3: Record the training completed for each employee on the respective
       regional safety office’s spreadsheet database or, alternatively, create a new training
       database.

       We consider Recommendation 3 resolved and implemented.

Action Taken: A memorandum from the Deputy Assistant Secretary—Indian Affairs dated
September 30, 2011, indicates that the Office of Human Capital Management (OHCM) has
compiled a training database listing which employees are required to take training, who has
completed the training, and who has not. This information is available to supervisors.
Additionally, OHCM maintains a separate training database for the Learning Management
System, which includes an applicable driver training course, and this employee-specific
information is also available to managers and supervisors. Lastly, OHCM created an entry in the
Federal Personnel/Payroll System (FPPS) to flag employees in positions that require the regular
operation of Government vehicles, and can now provide FPPS reports to supervisors and
managers identifying all current employees who have a mandatory driving or training
requirement.

       Recommendation 4: Require regional Safety Officers to obtain employee driver records
       from the National Highway Traffic Safety Administration’s National Driver Registry as
       part of their annual review process.

       We consider Recommendation 4 resolved and implemented.

Action Taken: The Assistant Secretary—Indian Affairs, sent a memorandum dated January 12,
2010, to the Director of the Bureau of Indian Affairs, the Director of the Bureau of Indian
Education, and to the Deputy Assistant Secretaries of Indian Affairs. The memorandum required
an annual submission of the Form GSA-3607, Motor Vehicle Operator's License and Driving
Record by subordinate employees required to operate motor vehicles. Upon receipt of Form-
3607, driving history records were required and processed from the National Driving Registry.
The memorandum also stated that if an employee failed to submit Form-3607, the employee's
Motor Vehicle Operators Authorization would be suspended.

       Recommendation 5: Ensure that regional Safety Officers’ notification letter includes (1)
       the requirement to notify the Safety Officer when authorization cards were suspended and
       cards revoked, and (2) a deadline by which these actions are to occur.

       We consider Recommendation 5 resolved and implemented.

Action Taken: The Assistant Secretary—Indian Affairs in a memorandum dated January 12,
2010, to the Director of the Bureau of Indian Affairs, the Director of the Bureau of Indian
Education, and the Deputy Assistant Secretaries, stated that the safety officers' notification letter
will require notifying the appropriate safety officer within one business day when an employee's
Motor Vehicle Operations Authorization card is suspended or revoked. A sample safety officer's
notification letter was provided, and the suspension and revocation language was included in the
letter.


                                                                                                    3
       Recommendation 6: Conduct routine reviews of the regional safety offices to ensure
       uniformity in program implementation.

       We consider Recommendation 6 resolved and implemented.

Action Taken: A Memorandum dated April 27, 2011, from the Deputy Assistant Secretary—
Indian Affairs to the Office of Financial Management addresses a Regional Safety Management
Program evaluation and audit process. It states that there is a quarterly audit schedule for fiscal
years 2011 to 2013, and that audits will be on a 3-year cycle. The quarterly audit schedule was
attached. In addition, sample regional evaluations already completed were also provided. We
noted that the audit Component 7 "Motor Vehicle Operation/Driver Authorization" addressed the
relevant topics.

Conclusion

       We informed BIA officials of the results of this review on July 27, 2012. BIA officials
agreed with the results of our review.


cc:    Donald Laverdure, Acting Assistant Secretary – Indian Affairs
       Michael Black, Director, Bureau of Indian Affairs
       Michael Oliva, Audit Liaison Officer, Assistant Secretary – Indian Affairs
       Alexandra Lampros, Audit Liaison Officer, Office of the Secretary




                                                                                                  4
